                               Closeout f o r M97100029

   OIG received a letter from the complainant' on October 6, 1997, alleging that
two graduate students2 in the same department he was in had poisoned him while
he was a graduate student at the university (1991-1995). He alleged that the
students systemically poisoned him before his Ph.D. qualifying examinations. He
further alleged that four faculty members3 in the same department knew of the
poisoning and did nothing about it.
    The only apparent connection to NSF was that two out of the four faculty
members, who allegedly knew he was being poisoned, had NSF funding at the time.
Because there was nothing in the complainant's letter to connect the alleged
poisoning to NSF research, facilities, or funds, we contacted the complainant to ask
for any evidence that could connect the allegation to NSF. He said he did not have
any. Tbus, we have no jurisdiction for this matter.
   We told the complainant that because he alleged a violation of local statutes,
this matter should be referred to the local authorities responsible for the
investigation of such incidents. He said that he had copied them on his letter to us.


   This inquiry is closed and no further action will be taken on this case.


cc: Legal, AIG-Oversight, IG




  1 (footnote redacted).
  2 (footnote redacted).
  3 (footnote redacted).



                                     Page 1of 1
